 Office of Inspector General
     Audit Report


   QUALITY CONTROL REVIEW OF
AUDITED FINANCIAL STATEMENTS FOR
    FISCAL YEARS 2011 AND 2010
     National Transportation Safety Board

         Report Number: QC-2012-005
        Date Issued: November 7, 2011
U.S. Department of                                               Office of Inspector General
Transportation                                                   Washington, DC 20590

Office of the Secretary
of Transportation




November 7, 2011

The Honorable Deborah A. P. Hersman
Chairman
National Transportation Safety Board
490 L’Enfant Plaza SW
Washington, D.C. 20594

Dear Chairman Hersman:

I respectfully submit our report on the quality control review (QCR) of the
National Transportation Safety Board’s (NTSB) audited financial statements for
fiscal years 2011 and 2010.

The audit of NTSB’s financial statements as of and for the years ended
September 30, 2011, and September 30, 2010, was completed by Leon Snead &
Company, P.C., of Rockville, Maryland (see Enclosure), under contract to the
Office of Inspector General. The contract required the audit to be performed in
accordance with generally accepted Government auditing standards and Office of
Management and Budget Bulletin 07-04, “Audit Requirements for Federal
Financial Statements,” as amended.

Leon Snead & Company, P.C. concluded that the financial statements present
fairly, in all material respects, the financial position, net cost, changes in net
position, and budgetary resources of NTSB, as of and for the years ended
September 30, 2011, and September 30, 2010, in conformity with U.S. generally
accepted accounting principles. The report did not include any reportable internal
control deficiencies or instances of reportable noncompliance with laws and
regulations tested.

We performed a QCR of Leon Snead & Company, P.C.’s report and related
documentation. Our QCR, as differentiated from an audit performed in accordance
with generally accepted Government auditing standards, was not intended for us to

Report Number QC-2012-005
                                                                              2

express, and we do not express, an opinion on NTSB’s financial statements or
conclusions about the effectiveness of internal controls or compliance with laws
and regulations. Leon Snead & Company, P.C. is responsible for its report dated
November 4, 2011, and the conclusions expressed in that report. However, our
QCR disclosed no instances in which Leon Snead & Company, P.C. did not
comply, in all material respects, with generally accepted Government auditing
standards. Because Leon Snead & Company, P.C. did not make any
recommendations, a response to this report is not required.

We appreciate the cooperation and assistance of representatives of NTSB and
Leon Snead & Company, P.C. If we can answer any questions, please call me at
(202) 366-1407, or Earl C. Hedges, Program Director, at (410) 962-1729.


Sincerely,


Louis C. King
Assistant Inspector General for Financial and
Information Technology Audits

Enclosure




Report Number QC-2012-005
